No.

In Hie
SUPREME COURT OF THE UNITED STATES
Sara Ann Edmondson,
Petitioner,
vs.
Lilliston Ford Inc; JANE AND JOHN DOES 1-10, individually and as owners, officers,
directors, founders, managers, agents, servents, employees, representatives and/or
independent contractors of LILLISTON FORD, INC.; XYZ CORPORATIONS 1-10,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit

CERTIFICATE OF WORD COUNT
I certify that the word count of this Petition for a Writ of Certiorari complies with the
rules at 3407.

71 Rainbow Trail
Pittsgrove, NJ 08318
609.501.2249
Dated: October 31,2019

